        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's Office
of Environmental Management's
Budget Allocation Plan




OAS-L-12-03                         March 2012
                                 Department of Energy
                                   Washington, DC 20585
                                        March 15, 2012



MEMORANDUM FOR THE SENIOR ADVISOR FOR ENVIRONMENTAL MANAGEMENT

FROM:                    Daniel M. Weeber, Director
                         Eastern Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Office of Environmental Management's Budget Allocation Plan"

BACKGROUND
The Department of Energy's Office of Environmental Management is tasked with managing the
technically challenging risks posed by the world's largest nuclear cleanup effort. At the end of
Fiscal Year 2010, EM had responsibility for nuclear cleanup activities at 18 sites covering more
than 500 square miles in 11 states, and employed more than 30,000 Federal and contractor
employees, including scientists, engineers and hazardous waste technicians. This cleanup poses
unique, complex problems that must be solved under hazardous conditions, and will require
billions in funding for decades.
EM received approximately $6 billion in traditional base appropriations for FY 2010, and
requested approximately $6 billion for FY 2011. However, under the Continuing Resolution for
FY 2011, EM was appropriated $5.7 billion, representing approximately $358 million in cuts
from the Department's FY 2011 budget request and a $317 million reduction from the
Department's FY 2010 enacted budget, reductions of about five percent of the base amount. In
addition, as part of the American Recovery and Reinvestment Act of 2009 the Department
received about $6 billion in funding to perform accelerated cleanup work at its sites, with the
bulk of the work conducted at its Hanford Site, the Oak Ridge Reservation and the Savannah
River Site. The Recovery Act funding stream has largely been expended and related work is
ending. Given the current budget uncertainties and increasingly scarce funding resources, we
initiated this audit to determine whether EM was effectively managing and planning for
declining budget allocations. Our work complements the conclusions relating to the EM
Program that were conveyed in our recent report on Management Challenges at the Department
of Energy (DOE/IG-0858, November 2011).
CONCLUSIONS AND OBSERVATIONS
We found that EM had implemented a risk-based process to manage and plan for declining
budget allocations that incorporates the myriad factors that must be considered in making
difficult budgetary decisions. The overall budget planning process, as implemented within EM,
prioritized the cleanup work in the following manner:
   1. Activities to maintain a safe, secure and compliant posture in the EM complex;
   2. Radioactive tank waste stabilization, treatment and disposal;

   3. Spent nuclear fuel storage, receipt and disposition;

   4. Special nuclear material consolidation, processing and disposition;

   5. Transuranic and mixed/low-level waste disposition;

   6. Soil and groundwater remediation; and,

   7. Excess facilities deactivation and decommissioning.

While adherence to this priority structure was designed to achieve the greatest risk reduction
associated with wastes containing the highest concentrations of radionuclides, risk was not the
only factor that led to ultimate funding decisions. For instance, there were approximately
37 cleanup agreements with Federal and state regulators that had to be considered during the
budget planning process. During FY 2011, cleanup agreements included 179 major enforceable
agreement milestones that, if missed, could have resulted in severe fines and penalties to the
Government. There were also certain regulatory guidelines that had to be followed, such as the
requirements established by the Resource Conservation and Recovery Act and the
Comprehensive Environmental Response, Compensation and Liability Act.

                                  Site Integrated Priority Lists

EM's budget formulation and allocation process was based on site needs and requirements.
Specifically, Headquarters' annual budget guidance required each field site to develop a site-
specific Integrated Priority List (IPL) ranking the site's projects based on the previously
discussed seven risk factors and regulatory considerations for funding purposes. In accordance
with the priority structure, the highest ranking items in the IPLs were those determined to be
"minimum safety/essential services" required to maintain an active EM facility, such as
safeguards and security, solid waste disposition supporting continued site operations, and soil
and groundwater surveillance. The guidance provided each site with target funding levels to be
used in determining which projects to include in EM's Congressional Budget Request. The sites
used target funding levels to "draw a line" above which projects were to be funded on a priority
basis. The IPL was the basis for the sites' budget requests. EM Headquarters combined the site
IPLs to establish an overall IPL for EM. Given funding limitations, the IPL established the
priority for funding EM projects.

We found that EM Headquarters' final budget decisions were either consistent with IPL
estimates, or deviations from priorities at the site level with adequate justifications. We
reviewed the FY 2011 and FY 2012 EM budget allocation process at Savannah River and Oak
Ridge, given the fact that each site received about $50 million less in the final funding plan for
FY 2011 than was requested in the FY 2011 Congressional Budget Request. Based on our
review, we found that both sites established IPLs for FYs 2011 and 2012 that appeared consistent
with the seven high-level priorities established within EM for the cleanup work. To ensure that


                                                2
these established priorities were maintained throughout the process, we reviewed a sample of
projects at both sites to determine if the ultimate FY 2011 funding decisions were consistent with
the IPL estimates. Working with budget officials from both sites, we determined that the
original priorities were either reasonably maintained in the final funding decisions or deviations
from the original priorities with justifications based on changes in exigent factors at the site. For
example, we found that EM's budget decisions allowed it to meet most major enforceable
milestones related to its cleanup mission for FY 2011. Specifically, EM reported that it met 173
of 179 (97 percent) of the major enforceable milestones established for FY 2011.

Finally, we determined that EM's budget development and allocation process was designed to
accommodate changes that could not be known or anticipated when the budget was originally
developed. EM Headquarters had delegated authority to site managers to control the execution
of their budgets at the project level, as long as the total expenditures were within the authority
levels established in the Congressional Budget or EM Operating Plan. Accordingly, site officials
were able to reallocate funds at the project level to accommodate changing needs or priorities
that could not have been anticipated years earlier at the beginning of the budget process. Budget
officials explained that viable reasons for reallocating funds included, but were not limited to,
requirement changes that eliminated the need for a particular project, unforeseen problems,
technology advancements, contractor changes, modified staffing levels, advancements or delays
to work scope, and changes in high-level priority areas.

                                           Path Forward

Although EM's current annual budget planning process appeared to be adequate to address the
nearly five percent decline in budget allocations that we tested, more extensive reductions could
put future regulatory and agreement milestones at risk. Given the current widespread calls for
dramatic reductions in Federal spending, it is possible that the process currently in place that is
based on site needs and requirements may lead to an increase in missed regulatory and
agreement milestones as budget allocations are further reduced across the complex. To address
such shortfalls, our report on Management Challenges at the Department of Energy, suggested
that the Department may need to revise its current environmental remediation strategy and
instead address environmental concerns on a national, complex-wide risk-driven basis.

No recommendations are being made in this report; therefore, a formal response is not required.
We appreciated the cooperation of the various Departmental elements during the audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Chief of Staff




                                                 3
                                                                             Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy's (Department)
Office of Environmental Management (EM) was effectively managing and planning for
declining budget allocations.

SCOPE

This audit was performed between June 2011 and February 2012, at the Department's
Headquarters in Washington, DC. The audit also included significant coordination with officials
from the Savannah River Site (Savannah River) and the Oak Ridge Office (Oak Ridge). The
scope of the audit primarily covered the Department's management and planning of EM's budget
for Fiscal Year's (FY) 2011 and 2012.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable laws, regulations and guidance relevant to EM's budget allocation
       process;

       Interviewed key personnel in EM and the Office of the Chief Financial Officer, and
       officials from Savannah River and Oak Ridge;

       Analyzed FY 2011 and FY 2012 Integrated Priority Lists for both Savannah River and
       Oak Ridge; and,

       Reviewed a sample of the Monthly Project Reviews conducted by EM for Savannah
       River and Oak Ridge.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the Department's implementation of the Government Performance and
Results Act of 1993 and concluded that the Department had not established performance
measures specifically related to EM's budget allocation process. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of the audit. While our reliance on computer-processed data was minimal, we
verified the accuracy of data relative to the audit objective.

We discussed the contents of the report with Department officials on February 3, 2012.

                                               4
                                                                    IG Report No. OAS-L-12-03

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                                         Date

Telephone                                                   Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
